No.

Supre

ao- 1526

f<£tApR 2 8 2021
OFFICE Dp

■It1FCLERK

IN THE
SUPREME COURT OF THE UNITED STATES

LEWIS ARCHER
Petitioner
vs.
AMERICAS FIRST FEDERAL CREDIT UNION
Respondent

On Petition for Writ of Certiorari To
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

LEWIS ARCHER
9070 O’Hara Drive
Mobile, Alabama 36695
251 367-8904

RECEIVED
MAY 3 - 2021
•FFICE OF THE CLERK
SUPREME COURT. U.S.

FOUR QUESTIONS PRESENTED
Thousands of families are being put out of their homes by
way of a RESPA (Real Estate Settlement Procedure Act)
loophole

found

in

Non-Judicial

foreclosure

State

Courts such as Alabama. According to this loophole, a
mortgagee’s failure to comply with federal loss-mitigation
regulations cannot be asserted as a defense in an ejectment
action in Non-Judicial State Courts. In addition, there is
currently a conflict among U. S. Circuit Courts of Appeals
concerning equitably tolling of the Statute of Limitation in
RESPA cases such as this one. This is yet to be addressed by
the U. S. Supreme Court.
The four questions before the United States Supreme Court
are^
1.

Does the fact that there is “no defense for Federal

Mitigation wrongdoing by lenders in non-judicial State
court” while such defense naturally exists in federal court,
violate the Equal protection clause of the Fourteenth
Amendment?
i

2.

Does the fact that there is “no defense for Federal

Mitigation wrongdoing bv lenders in non-judicial State
court” while such defense naturally exists in federal court,
violate the Federal “Supremacy Clause” in the Second
paragraph of Article VI of the US Constitution?
3.

Since a lender can stretch its RESPA abuse such as

Dual-Tracking over many months or years to use up the
victim’s three-year Statute of Limitation Period, in this case
19 months of dual-Tracking followed by a nonjudicial state
court procedure stretched for 2 years, should Equitable
Tolling of the Statute of Limitation be applied in RESPA
(Real Estate Settlement Procedure Act) cases?
4.

Does issuing a State Writ of Possession, before the

Federal Mitigation wrong doings are addressed in a proper
jurisdiction, violate the Federal “Supremacy Clause” in the
Second paragraph of Article VI of the US Constitution?

ii

LIST OF ADDITIONAL PARTIES
Shearie Archer

CORPORATE DISCLOSURE
Petitioner- does not have a parent corporation and is not a
publicly held corporation.

•
America’s First Federal Credit Union v, Archer; No.
CV-2016-900716 Circuit Court of Mobile County, Alabama
June 25, 2018.
•
Archer v. America’s First Federal Credit Union, No.
No. 2180136, Alabama Court of Civil Appeals. Judgement
entered May 17, 2019.
•
Archer v. America’s First Federal Credit Union, No.
L19-CV-00258 U. S. District Court for the Southern District
of Alabama Southern Division. Judgement entered Dec. 2,
2019.
•
Archer v. America’s First Federal Credit Union, No.
19-15182, U. S. Court of Appeals for the Eleventh Circuit.
Judgement entered Feb 1st, 2021.

iii

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED............................ ..................................
3
STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

8

INDEX TO APPENDICES

APPENDIX A---Eleventh Circuit Court of Appeals
Decision....................................

9

APPENDIX B-"District Court Decision...............

21

APPENDIX C--Magistrate Judge Report

27

APPENDIX D-"Eleventh Circuit Court of Appeals
Rehearing Denial..............

iv

72

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Campbell v.Bank of America, N.A.,14- 141

5

So. 3d 492, 496 (Ala. Civ. App. 2012).
Williams v. Wells Fargo Bank. N.A.. 218---

5

So. 3d 816, 825 (Ala. civ. App. 2016.

STATUTES AND RULES

12 CFR § 1024.41 (f) (l)

6

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari
issue to review the judgment below.

OPINIONS BELOW
The opinion of the United States court of appeals for
the Eleventh Circuit appears at Appendix A to the
petition and is unpublished.
The opinion of the United States district court appears
at Appendix B to the petition and is unpublished.
The findings and recommendations of the United
States magistrate judge appears at Appendix C.
The United States court of appeals denial for the
timely filed rehearing appears at Appendix Ih

1

JURISDICTION
The date on which the United States Court of Appeals
decided my case was February 1st, 2021.
A timely petition for rehearing was denied by the
United States Court of Appeals for the Eleventh
Circuit on the following date' March 18th. 2021. and a
copy of the order denying rehearing appears at
Appendix D.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1)

2

CONSTITUTIONAL AND STATUTORY
PROVISION INVOLVED

14th Amendment to the United States Constitution
Section 1
nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to
any person within its jurisdiction the equal protection
of the laws.

US Constitution Article VI
Paragraph 2
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.

3

STATEMENT OF THE CASE
The

Archers

(Petitioners) suspected

that

something was not quite right in the law when their
lender (Respondent) America’s First Federal Credit
Union, failed to comply with several federal lossmitigation regulations, then went straight to State
Court to eject the Archers from their home of 27 years.
The State Court ignored ALL of the Archers’
defenses concerning Federal Mitigation wrongdoing
by their lender. The lender proceeded to use up the
Archer’s Statute of Limitation period then, simply
submitted to the State Court a prewritten “Writ of
Possession to be signed by the State Court Judge and
it worked!
When the Archers took the lender to Federal
Court, compulsory counter claims did not matter
because the lender simply pleaded Res Judicata!

4

The Archer’s suspicion was confirmed when it
was revealed that a mortgagee’s failure to comply with
federal loss-mitigation regulations cannot be asserted
as a defense in an ejectment action in Non-Judicial
State Courts.1,2
Lenders routinely use this loophole to deprive
thousands of homeowners of their homes in Non­
judicial State Courts such as Alabama. Federal law
makes it clear that the loss mitigation regulations are

1 Williams v. Wells Fargo
Bank. N.A.. 218 So. 3d 816, 825 (Ala. civ. App. 2016.
2 “An ejectment action following a nonjudicial foreclosure. . .
is not a ‘foreclosure action,’ and a defense in such an
action asserting errors in the foreclosure process is a
collateral attack on a foreclosure.” Id, quoting
Campbell v.Bank of America. N.A..14: 141 So. 3d 492, 496
(Ala. Civ. App. 2012).

5

intended to apply to Judicial and Non-Judicial
Foreclosures equally3. Many homeowners lose their
homes in that manner without being aware that it was
a losing battle from the beginning!
Therefore, the supervisory authority of the
United States Supreme Court is being called upon to
address the constitutionality of this critical issue in
the four questions before this honorable court. At this
present time, the federal circuit courts are split in
tolling of the Statute of Limitation period for RESPA
violations for the thousands of homeowners who were
harmed by their lenders.

312 CFR § 1024.41
(f) Prohibition on foreclosure referral (1) Pre-foreclosure review period. A servicer shall not make
the first notice or filing required by applicable law for any
judicial or non-iudicial foreclosure process unless:

6

REASON FOR GRANTING THE PETITION

Granting this petition will help

thousands of

homeowners including the Archers to stay in their
homes. It will remove the no defense for Federal loss
mitigation abuse in nonjudicial State court that
lenders use to deprive thousands of homeowners of
their homes. It will also help the courts appellate
jurisdiction by resolving the existing conflict among
U. S. Circuit Courts concerning the potential to
Equitably toll the Statutes of Limitation of RESPA
cases such as this one.

7

CONCLUSION
We

pray

that

this

honorable

court

takes

in

consideration that this issue is of importance to
thousands of homeowners far beyond the parties
involved. Many abuses by lenders have surfaced in
recent years. Additionally, it is unsettled law amongst
the 12 Federal Circuit Courts of Appeals concerning
tolling of the Statute of Limitation in RESPA cases
such as this one.
The petition for a writ of certiorari therefore should be
granted.

Respectfully submitted,

t

(yA.

Date:

V

<7^0 rX 1

8

APPENDIX A
DECISION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
William Pryor Chief Judge, Grant and Tjoflat, Circuit
Judges.
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15182

D.C. Docket No. L19-cv-00258-TFM-MU
•*»»
.

t

APPENDIX A

9

